U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

February 5, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Randy Dominguez v. United States,
No. 20-6599
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December 7,
2020, and placed on the Court’s docket on December 10, 2020. The government’s response is
currently due, on one extension, on February 10, 2020.
We respectfully request, under Rule 30.4 of the Rules of this Court, a further extension to
and including March 12, 2021, within which to file the government’s response. This extension is
necessary because the attorneys with principal responsibility for final preparation of the
government’s response have been heavily engaged with the press of other matters before the Court.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General

cc:

See Attached Service List

20-6599
DOMINGUEZ, RANDY
USA

BRADFORD WAYNE BOGAN
FEDERAL PUBLIC DEFENDER FOR THE
WESTERN DISTRICT O
727 E. CESAR E. CHAVEZ BLVD.
B-207
SAN ANTONIO, TX 78206
210-472-6700
BRAD_BOGAN@FD.ORG

